Case: 1:19-cv-00014-MPM-DAS Doc #: 71 Filed: 09/24/19 1 of 1 PageID #: 1205
49a
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF MISSISSIPPI
ABERDEEN DIVISION
ETHAN HOGGATT, ET AL.

PLAINTIFFS

VS.

CAUSE NO. 1:19-cv-00014-MPM-DAS

ALLSTATE INSURANCE, ET AL.

DEFENDANTS
ORDER

Before the Court is Plaintiffs’ [70] Motion for Stay, seeking a stay of proceedings pending
resolution of their appeal of the undersigned’s [59] Order to the District Judge. The Court finds
that the motion is well-taken and should be granted.
IT IS, THEREFORE, ORDERED that this case is STAYED pending resolution of the
appeal. The parties are directed to notify the undersigned within seven days of a ruling on the [69]
Plaintiffs’ Appeal to the District Court.
SO ORDERED, this the 24th day of September, 2019.

/s/ David A. Sanders
UNITED STATES MAGISTRATE JUDGE

APPENDIX G

